<html>
<title> - OCEAN EXPLORATION:. DIVING TO NEW DEPTHS AND DISCOVERIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           OCEAN EXPLORATION:
                  DIVING TO NEW DEPTHS AND DISCOVERIES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2019

                               __________

                           Serial No. 116-25

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-505PDF                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>              
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    JENNIFFER GONZALEZ-COLON, Puerto 
DON BEYER, Virginia                      Rico
                        
                        
                        C  O  N  T  E  N  T  S

                              June 5, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................     9

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12

                               Witnesses:

Dr. Katy Croff Bell, Founding Director, Open Ocean Initiative, 
  MIT Media Lab
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Carlie Wiener, Director of Marine Communications, Schmidt 
  Ocean Institute
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. Steve Barrett, Senior Vice President Business Development, 
  Oceaneering International
    Oral Statement...............................................    51
    Written Statement............................................    53

Mr. David Lang, Co-founder, Sofar Ocean Technologies
    Oral Statement...............................................    57
    Written Statement............................................    59

Discussion.......................................................    63

             Appendix I: Answers to Post-Hearing Questions

Dr. Katy Croff Bell, Founding Director, Open Ocean Initiative, 
  MIT Media Lab..................................................    82

Dr. Carlie Wiener, Director of Marine Communications, Schmidt 
  Ocean Institute................................................    89

Mr. Steve Barrett, Senior Vice President Business Development, 
  Oceaneering International......................................    94

Mr. David Lang, Co-founder, Sofar Ocean Technologies.............    95

            Appendix II: Additional Material for the Record

Letters submitted by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    98

 
                           OCEAN EXPLORATION:.
                  DIVING TO NEW DEPTHS AND DISCOVERIES

                              ----------                              


                         WEDNESDAY, JUNE 5 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 9:15 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. The hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good morning, and welcome to today's hearing 
entitled, ``Ocean Exploration: Diving to New Depths and 
Discoveries.'' The Committee is holding this hearing at the 
beginning of World Oceans Month and Capitol Hill Ocean Week to 
celebrate the oceans, and the wonders that they hold. I would 
like to welcome and thank all of our witnesses for being here 
today to discuss the state of our oceans and the importance of 
ocean exploration to the United States. I want to let the 
witnesses know that my colleagues and I are going to have to 
leave for votes around 10 a.m., actually on four bills that 
address ocean acidification that passed out of this Committee 
last month, so in order to get to witness testimony and 
questions as quickly as possible, Ranking Member Marshall and I 
are going to keep our opening statements short. I request to 
submit my full statement for the record.
    As we've discussed in the Subcommittee this Congress, the 
oceans are incredibly important for sustaining life on Earth, 
regulating the Earth's climate, supplying over half the oxygen 
we breathe, providing a major source of protein for billions of 
people around the planet, and more. Human health is intricately 
connected to ocean health. We live on a blue planet. The oceans 
cover 71 percent of our planet, and yet we've mapped about 15 
percent of the sea floor. Human eyes have seen less than 5 
percent of it. While we have sent 12 people to the moon, only 
four have gone to the deepest part of the ocean. The ocean is 
the Earth's final frontier.
    Yesterday we held a hearing on biodiversity laws, and heard 
about the rapid rate at which the oceans are changing through 
climate change, ocean acidification, pollution, over-fishing, 
and more. The clock is ticking. At today's hearing I look 
forward to a discussion with our distinguished panel of 
experts, innovators, and explorers on how we can advance the 
pace of ocean exploration, and dive to deeper depths and 
discovery for a better future.
    I also note that the Science Committee is hosting its first 
ever Ocean Exploration Expo tomorrow morning at 9:30, which 
some of our panelists, and many other groups from the ocean 
exploration community will showcase their cutting edge 
technology, work, and discoveries. This will be an amazing and 
fun educational opportunity, and I encourage those who can to 
attend.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good morning, and welcome to the Subcommittee on 
Environment's hearing entitled, ``Ocean Exploration: Diving to 
New Depths and Discoveries.'' The Committee is holding this 
hearing at the beginning of World Oceans Month and Capitol Hill 
Ocean Week, to celebrate the oceans and the wonders that they 
hold. I would like to welcome and thank all of our witnesses 
for being here today to discuss the state and importance of 
ocean exploration to the United States.
    As we've discussed in this Subcommittee this Congress, the 
oceans are incredibly important for sustaining life on earth, 
regulating the earth's climate, supplying over half of the 
oxygen we breathe, providing a major source of protein for 
billions of people around the planet, and more. Human health is 
intricately connected to ocean health.
    We live on a blue planet. The oceans cover 71% of our 
planet, and yet we have mapped only about 15% of the seafloor. 
Human eyes have seen less than 5% of it. While we have sent 12 
people to the Moon, only four have gone to the deepest part of 
the ocean. The ocean is earth's final frontier.
    Yesterday, we held a hearing on biodiversity loss and heard 
about the rapid rate at which the oceans are changing--through 
climate change, ocean acidification, pollution, overfishing, 
and more. The clock is ticking.
    At today's hearing, I look forward to a discussion with our 
distinguished panel of experts, innovators, and explorers, on 
how we can advance the pace of ocean exploration and dive to 
deeper depths and discovery for a better future.
    I also note that the Science Committee is hosting its 
first-ever Ocean Exploration Expo tomorrow morning at 9:30, at 
which some of our panelists and many other groups from the 
ocean exploration community will showcase their cutting-edge 
technology, work, and discoveries. This will be an amazing and 
fun educational opportunity and encourage those who can to 
attend.
    We know more about the surface of the moon than we do about 
the seafloor. Like space exploration, ocean exploration has 
traditionally been a difficult, time-consuming, and expensive 
endeavor. As Dr. Bell points out in her testimony, at the 
current rate of ocean exploration - using the gold-standard of 
oceangoing research vessels equipped with special equipment for 
mapping and exploration - it would take over 1,000 years and 
millions of dollars to explore the remaining 85% of the oceans.
    As new technologies emerge for exploring the oceans, from 
underwater drones and smaller and cheaper remotely operated 
vehicles (ROVs), sensors to measure conditions in harsh ocean 
environments, to machine learning applications, ocean 
exploration is experiencing a renaissance. But the U.S. is 
falling behind in marine innovation, as federal investment in 
ocean exploration remains relatively small and stagnant, while 
international investment and innovation in ocean exploration 
grows. I am glad we are having this hearing to explore ways 
this Committee can look to legislative solutions to support and 
enhance U.S. leadership in ocean exploration.
    The United States has jurisdiction over more ocean than any 
other nation, so we have a real leadership role to play in 
ocean exploration. Our exclusive economic zone covers over 4.3 
million square miles, an area larger than the 3.8 million 
square miles of terrestrial land that make up the U.S. Having 
information on what's in the U.S.'s waters and seafloor is 
important for national security, natural resource management, 
economic health, and cultural identity. We must know what's out 
there in order to better manage and conserve our resources for 
generations to come.
    Ocean exploration would not be possible without a diverse 
enterprise of federal, commercial, academic, and non-profit 
investors and stakeholders. The National Oceanic and 
Atmospheric Administration is home to the nation's only 
dedicated federal ocean exploration program. This Committee is 
interested in learning about how the members of the ocean 
exploration community work together and how these roles can be 
better defined and partnerships leveraged to increase the pace, 
scope, and efficiency of ocean exploration.
    We are a nation of explorers, and we must keep exploring 
and learning about the oceans because our future depends on it.

    Chairwoman Fletcher. I will now recognize Ranking Member 
Marshall for an opening statement.
    Mr. Marshall. Thank you for holding this hearing, 
Chairwoman Fletcher. I want to thank our witnesses for 
appearing before this Subcommittee and sharing their 
perspectives. Though we are known more for wheat, cattle, and 
ethanol production, Kansans are affected every day by our 
oceans. Weather and climate patterns are one direct impact, but 
other indirect impacts, such as energy production, 
international trade routes, shipping our exports, as well as 
recreation and tourism opportunities affect Kansans daily. All 
Americans benefit from a better understanding of our oceans, 
whether we live on a farm in western Kansas, or a coastal 
community along the ocean.
    June is National Ocean Month, and it's fitting we hold this 
hearing recognizing the importance of researching this part of 
our planet, which has gone largely unexplored. Over 70 percent 
of our planet is covered by water, and more than 96 percent of 
that water is in our oceans. There are more than 13,000 miles 
of United States coastline, and 3.4 million nautical square 
miles within our Nation's territorial jurisdiction. However, 
NOAA (National Oceanic and Atmospheric Administration) 
estimates that only 35 percent of the ocean water adjacent to 
the U.S. has been explored with modern technology.
    A recent proclamation from the White House notes that our 
oceans, along with the Great Lakes, generate more than $320 
billion in economic activity annually. As part of NOAA's Fiscal 
Year 1920 budget submission, Acting Administrator Dr. Neil 
Jacobs named the development of the blue economy one of his top 
priorities. Having a better understanding of our oceans is an 
important component of promoting economic development, whether 
it's ensuring a strong fisheries economy, international trade, 
recreation and tourism, or energy exploration, we all benefit 
from ocean exploration.
    Scientific research is an important aspect of ocean 
exploration. We will hear from our witnesses today how 
discoveries from research conducted related to our oceans can 
positively impact medical research, cleaner energy production, 
and even the development of spacesuits. I look forward to 
hearing from our witnesses how this Committee can help promote 
research for our oceans.
    In January 2018, President Trump signed an executive order 
to advance ocean-related scientific research, and promote 
greater coordination between Federal agencies and ocean 
partnerships. This committee should ensure that universities, 
private companies, and non-profit groups can continue the 
mission of increasing our knowledge of our oceans for the 
benefit of our country. Thank you, Madam Chair, and I yield 
back.
    [The prepared statement of Mr. Marshall follows:]

    Thank you for holding this hearing, Chairwoman Fletcher. I 
want to thank our witnesses for appearing before the 
Subcommittee and sharing their perspectives.
    Though we are known more for wheat and cattle production, 
Kansans are affected everyday by our oceans. Weather and 
climate patterns are one direct impact, but other indirect 
impacts, such as energy production, international trade routes 
shipping our exports, as well as recreation and tourism 
opportunities affect Kansans daily. All Americans benefit from 
a better understanding of our oceans, whether we live on a farm 
in western Kansas or a coastal community along the Atlantic 
Ocean.
    June is National Ocean Month and it is fitting we hold this 
hearing recognizing the importance of researching this part of 
our planet which has gone largely unexplored. Over 70% of our 
planet is covered by water and more than 96% of that water is 
in our oceans. There are more than 13,000 miles of U.S. 
coastline and 3.4 million nautical square miles within our 
nation's territorial jurisdiction, however NOAA estimates that 
only 35% of the ocean water adjacent to the U.S. has been 
explored with modern technology.
    A recent proclamation from the White House notes that our 
oceans, along with the Great Lakes, generate more than $320 
billion in economic activity annually. As part of NOAA's FY 20 
budget submission, Acting Administrator Dr. Neil Jacobs named 
the development of the blue economy one of his top priorities. 
Having a better understanding of our oceans is an important 
component of promoting economic development. Whether it is 
ensuring a strong fisheries economy, international trade, 
recreation and tourism, or energy exploration, we all benefit 
from ocean exploration.
    Scientific research is an important aspect of ocean 
exploration. We will hear from our witnesses today how 
discoveries from research conducted related to our oceans can 
positively impact medical research, cleaner energy production, 
and even the development of spacesuits.
    I look forward to hearing from our witnesses how this 
committee can help promote research of our oceans. In January 
2018, President Trump signed an executive order to advance 
ocean-related scientific research and promote greater 
coordination between federal agencies and ocean partnerships. 
This committee should ensure that universities, private 
companies, and non-profit groups can continue the mission of 
increasing our knowledge of our oceans for the benefit of our 
country.
    Thank you, Madam Chair. I yield back.

    Chairwoman Fletcher. Thank you, Mr. Marshall. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you Chair Fletcher for holding this hearing, and I 
would also like to welcome our witnesses today.
    I am glad to see our Committee so engaged in World Oceans 
Month and Capitol Hill Ocean Week from our film screening of 
Chasing Coral yesterday, to today's hearing, to our Ocean 
Exploration Expo tomorrow morning. We are also moving four 
bipartisan ocean acidification bills, which passed out of this 
Committee last month, on the House Floor this morning. The 
oceans are such a vital part of our national economy and 
livelihoods, with forty percent of the U.S. population residing 
in coastal counties that it is only fitting that we celebrate 
them.
    The oceans make up over seventy percent of the surface of 
our planet, but over eighty percent of the world's oceans 
remained unmapped. It is commonly said that we know more about 
the surface of the moon than we do about the sea floor. Ocean 
exploration is more than just finding ship wrecks and 
identifying new marine species. It has the potential to answer 
questions about the origins of life on Earth and beyond. We 
have barely scratched the surface when it comes to marine 
discoveries.
    I have always considered the Science, Space, and Technology 
Committee to be the Committee of the future. We have seen our 
federal investments in research and development lead to great 
advances in science and technology that have helped the United 
States to lead in many fields. This Committee should be 
committed to continuing to promote and enable American 
excellence in science, technology, and innovation. Ocean 
exploration is a field that has untold opportunity. But, 
despite the emergence of new cutting-edge and cost-effective 
ocean exploration technologies, we are ceding ground to other 
countries. Congress must be engaged in the next phase of ocean 
exploration so we can regain American leadership in this field.
    In order to be global leaders, we must first understand the 
state and importance of ocean exploration, which is why today's 
hearing is so important. The witness panel brings together 
diverse perspectives of organizations that are at the leading 
edge of ocean exploration. It is a field that is built upon a 
foundation of partnerships between public, private, academic, 
and non-profit sectors. We need to ensure that we are fully 
leveraging these partnerships to maximize the resources and 
tools available to us. I am looking forward to our witnesses 
providing feedback on how these partnerships are working, and 
how we can address knowledge gaps so that we can continue to 
make advances in this important.

    Chairwoman Fletcher. And at this time, I would like to 
introduce our witnesses.
    Our first witness, Dr. Katy Croff Bell, is the founding 
Director of the Open Ocean Initiative, and a research scientist 
at the MIT Media Lab. Her background is in deep-sea 
exploration, and since 1999 she has led or participated in more 
than 25 oceanographic and archaeological projects. In 2001, she 
was a John A. Knauss Marine Policy Fellow in the NOAA Office of 
Ocean Exploration. At the Ocean Exploration Trust, she was 
chief scientist of the Nautilus Exploration Program. Dr. Bell 
received her B.S. in ocean engineering from MIT, her Master's 
in maritime archaeology from the University of Southampton, and 
her Ph.D. in geological oceanography from the University of 
Rhode Island.
    Our second witness, Dr. Carlie Wiener, is the Director of 
Marine Communications at the Schmidt Ocean Institute. 
Previously she held the position of communications manager for 
Centers for Ocean Science, Education Excellence, Island Earth, 
and prior to that she worked as the research and outreach 
specialist for the Hawaii Institute of Marine Biology, 
Northwestern Hawaiian Islands Research Partnership, at the 
University of Hawaii. She also hosted the monthly marine 
science radio show, All Things Marine, for 6 years. Dr. Wiener 
received her bachelor's degree in communications, and her 
master's and doctorate degrees in environmental studies from 
York University in Toronto, Canada.
    Our third witness, Mr. Steve Barrett, is the Senior Vice 
President of Business Development at Oceaneering International, 
Inc. Previously he served as senior vice president of Sub-sea 
Product Lines at Oceaneering International. Mr. Barrett has 
more than 30 years of experience working in the oil and gas 
industry, starting in 1980. In 1982, he joined FMCA 
Technologies, Inc., where he progressed from design engineer to 
his most recent role as global director of Sub-sea Services. 
Mr. Barrett holds a B.S. in mechanical engineering from Texas 
A&M University, and an MBA in finance and entrepreneurship from 
Rice University.
    Our final witness is Mr. David Lang, the co-Founder and 
Vice President of Business Development and Outreach for Sofar 
Ocean Technologies. In 2011, Mr. Lang co-founded Open Rove, 
which pioneered low-cost, underwater drone designs. Open Rove 
merged with another company in 2019 to form Sofar. Now the 
mission of the company is to create pervasive sensor networks 
to understand and monitor ocean environments, and provide 
critical data for ocean enthusiasts, industry, and 
conservation. Mr. Lang received his bachelor's of business 
administration from the University of Wisconsin, Madison.
    Each witness will have 5 minutes for their spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When you've completed your spoken 
testimony, we will begin with questions. Each Member will have 
5 minutes to question the panel. And we will begin with Dr. 
Bell.

                TESTIMONY OF DR. KATY CROFF BELL,

            FOUNDING DIRECTOR, OPEN OCEAN INITIATIVE,

                          MIT MEDIA LAB

    Dr. Bell. Chairwoman Fletcher, Ranking Member Marshall, 
Members of the Environment Subcommittee, and Members of the 
House Committee on Science, Space, and Technology, thank you 
for this opportunity to testify on the importance and future of 
ocean exploration.
    The deep ocean, below 200 meters, is the largest ecosystem 
on our planet, supporting life for every human on Earth. The 
ocean provides most of the oxygen we breathe, supplies food for 
billions of people, supports a trillion dollar global ocean 
economy, nourishes our souls, and astonishes us with its 
wonders. In turn, we are impacting the deep sea at an 
unprecedented rate, increasing greenhouse gas emissions, 
pollution, extraction industries, and more, and yet we only 
have a rudimentary understanding of the ocean's role in our 
survival. We are at a critical point where we may be 
irreparably impacting the deep sea without truly understanding 
what those impacts may be.
    In 2000, an expert panel, led by Dr. Marsha McNutt, 
published the report of the President's Panel on Ocean 
Exploration. The distinguished group of academic, industry, and 
government leaders called for the establishment of a Federal 
ocean exploration program to map the physical, geological, 
biological, chemical, and archaeological aspects of the ocean, 
funded at $75 million a year. Within months the NOAA Office of 
Ocean Exploration was created, funded at $4 million, and has 
seen a maximum of $42 million just this year in FY 2019. If 
high risk research like exploration is underfunded or unstable, 
agencies will tend to invest in safe bets that result in 
incremental progress, rather than riskier, but potentially 
transformative, endeavors that can truly change the future, 
enhance our understanding of the ocean, and ensure U.S. 
leadership. Today, deep-sea exploration sits at a crossroads. 
We could continue making incremental progress, or we could 
invest in new technologies, research methods, and social 
systems to transform and accelerate discovery for the 21st 
century. I believe that America is better served with the 
latter.
    To do so, we must first maximize the efficiency of 
discovery. Current practices focus on large, ship-based 
equipment, which affords spectacularly detailed observations, 
like the ones you see here, but only on hyper-focused spatial 
and temporal scales, and at a very expensive rate. To try 
maximize our investment, we should leverage economies of scale 
to dramatically decrease the cost of sensors and systems by 
orders of magnitude to significantly increase the amount of 
area and volume of the ocean that we can explore, develop data 
systems, standards, archiving, access, and advanced analysis to 
fully understand data and new scales in an integrated way, and 
innovate across the spectrum of exploration by applying 
advances from other industries to ocean challenges, and 
creating a responsive environment in which to deploy and 
operationalize new tools to re-establish the United States as a 
global leader.
    Second, we must use these new tools to explore the world's 
undiscovered places. To be sure, the mandate to explore the 
entirety of the U.S. exclusive economic zone is a significant 
challenge, but it is not enough. The ocean does not know 
boundaries, and it is an incredibly interconnected system, from 
coastal communities to the high seas, the atmosphere, to the 
deep-sea trenches. We therefore must view ocean exploration as 
a global imperative, not a national one, to achieve something 
greater than we could ever do alone.
    And, finally, we must lead a global community of explorers. 
Traditionally exploration is conducted by those with advanced 
degrees, and access to costly equipment, limiting the number 
and diversity of people involved in the enterprise. To fully 
explore and understand our vast oceans, however, we need to 
work outside the traditional structures. One strategy for 
thinking beyond our current model is to build new bridges with 
communities who have not yet been invited into oceanographic 
exploration, including underrepresented communities within the 
U.S., as well as developing countries around the world. Instead 
of only an elite cadre of academics participating in ocean 
exploration, limiting the types and amount of work that we can 
do, we need to nurture new communities, build greater global 
capacity for exploration, and look for ideas and expertise in 
unexpected places.
    Creating a global program of ocean exploration is 
ambitious, but imperative, and will yield a significant return 
on investment, with innumerable benefits to the United States, 
and the world. To do so, we need to invest in high risk 
research and development to maximize discovery, explore the 
world's undiscovered places, and lead a global community of 
explorers. By undertaking a long-term global strategy of ocean 
exploration, we will leverage all that we know, and all that we 
will discover. Thank you very much.
    [The prepared statement of Dr. Bell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Bell. Dr. Wiener?

                 TESTIMONY OF DR. CARLIE WIENER,

               DIRECTOR OF MARINE COMMUNICATIONS,

                     SCHMIDT OCEAN INSTITUTE

    Dr. Wiener. Thank you Chair Fletcher, Ranking Member 
Marshall, and the other distinguished Members of the Committee, 
for holding this valuable hearing today, and for giving me the 
esteemed privilege for providing testimony. It is an honor to 
be here to speak about the deep-sea environment that is not 
often at the forefront of everyday citizens' thoughts about the 
ocean. Such vital systems, like deep seamounts, coral reefs, 
seeps, and other deep systems provide scientific understanding, 
sharing, and consideration. I thank this Committee for its 
efforts to facilitate discussion on a national level to address 
the significance of ocean exploration, and continued need for a 
collaboration, technology-based research. If you could start 
the slide, that would be great.
    It is my great pleasure to appear before you today in my 
current capacity as directing communications and outreach for 
Schmidt Ocean Institute, a 501(c)(3) operating foundation 
established by Eric and Wendy Schmidt in 2009. Schmidt Ocean 
Institute is the only philanthropically funded international 
seagoing facility dedicated to year-round open ocean research, 
and aims to foster a deep understanding of our ocean by 
combining advanced science with state-of-the-art technology. In 
my role I share the exciting discoveries and important research 
that takes place on the institute's research vessel, Falkor.
    A statistic we often hear is that we know more about the 
far side of the moon than about the ocean, but I personally 
think that the more important question to highlight here is, 
why do we know more about the moon than we do about the deep 
sea? How do we create excitement and passion for the systems 
that we cannot view from the beach, and bring understanding to 
the ocean health--about ocean health to America's heartland? 
Many observe the vastness of the ocean, but few comprehend the 
scale of the deep sea. However, technology is beginning to 
change this, not only giving access to these environments for 
research, but to share this exploration through livestreaming 
video around the world, technology that continues to advance 
the state of the ocean science in an area where more focus 
needs to be allocated, allowing for broader and faster data 
collection, management, analysis, and open sharing.
    As our global ocean changes, we need to be able to capture 
baseline data for hard-to-reach places, and understand how they 
will influence shallow environments. Unfortunately, available 
deep-sea observations are discontinuous, and it is not known 
how these ecosystems connect to each other, or to the broader 
ocean food chain. One of the best ways to close this lack of 
understanding is through multi-disciplinary, multinational 
partnerships. Schmidt Ocean Institute has endeavored to achieve 
this through unique collaborations that have had scientific and 
conservation implications. An example of this is in 2014, high-
resolution maps created off of research vessel Falkor for the 
Papahanaumokuakea Marine National Monument. These maps helped 
to eliminate sea mounts that contributed to justification for 
expansion of the protected areas. Or of the newly discovered 
geological formations found in the Pescadero Basin last year 
that feature upside-down, mirror-like lakes that pool hot 
fluids. The work at this site will further allow investigation 
of the geological controls on habitat suitability for different 
animal communities.
    Better data monitoring and capacity will play a central 
role in improving exploration outcomes. This means not only 
implementing robust technologies in our own waters of North 
America, but expanding them globally to remote and developing 
countries. Robotics systems, coupled with artificial 
intelligence, can complement existing vessels and platforms. 
When deployed in groups, autonomous vehicles will improve 
coverage and cost-efficiency for ocean observations.
    Schmidt Ocean Institute has focused on scalable ocean 
research, offering time at sea for developing and testing of 
robots, and smart software for autonomous marine surveys. These 
types of projects allow scientists to make quick and well-
informed decisions on how to directly sample and conduct fine-
scale surveys. While we still have much to discover here on 
Earth, scientists are also looking to other oceans in our solar 
system. In preparation for such endeavors, deep ocean systems 
can serve as a laboratory to develop and test new technology 
for use in extraterrestrial exploration.
    Ocean exploration lends itself to interactive storytelling 
and engagement. Outreach programs should not only continue to 
be supported on a national level, but successful programs must 
be identified, expanded, and replicated across disciplines and 
locations. It is important to not just make data and imagery 
available, but to synthesize these materials for engaging 
widespread audiences. One example is Schmidt Ocean Institute's 
Artists at Sea program, that has had many artists participate 
in science expeditions, and share their art. It is a way to 
make data approachable, and bring in new audiences to 
understand the ocean.
    The public faces daily messages and negativity surrounding 
our ocean. During this time of environmental decline, ocean 
exploration can provide a new narrative, bringing a message of 
hope by showcasing beautiful and mysterious parts of our ocean 
that are rarely observed to millions of people. The ocean is 
changing, but new data, science, and dedicated people can bring 
a fresh understanding and engagement to the deep sea. Thank you 
very much for inviting me to testify here today.
    [The prepared statement of Dr. Wiener follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Wiener. Mr. Barrett?

                   TESTIMONY OF STEVE BARRETT,

          SENIOR VICE PRESIDENT, BUSINESS DEVELOPMENT,

                    OCEANEERING INTERNATIONAL

    Mr. Barrett. Chairwoman Fletcher, Ranking Member Marshall, 
Members of the Committee, thank you for holding this very 
timely and important hearing, and for the opportunity to 
provide one perspective on the future of ocean exploration. I'm 
very excited to be here today, and to represent Oceaneering 
International, and to share a seat at this table with some 
truly incredible co-panelists. Dr. Wiener's tremendous work as 
Communications Director at Schmidt Ocean Institute, where 
Schmidt continues to set the bar for getting ocean exploration 
at the forefront of the public; Dr. Bell's aggressive work to 
promote ocean exploration as a cornerstone in the field and the 
academic world, and continues to set the example for others to 
join and emulate; and David Lang's innovative approach with 
Open ROV (remotely operated vehicles), and now Sofar Ocean 
Technologies, and his engagement in ocean exploration and new 
ideas are bringing a new generation of ocean explorers to our 
world. Together they are bringing us to new depths and 
discoveries.
    My written submitted remarks focus on how Oceaneering's 
history of innovation and technology development is helping 
shape the future of ocean exploration, particularly in the 
commercial ocean energy services and defense undersea sectors. 
Oceaneering continues to leverage technology, innovation, and 
expertise from its maritime, space, and robotics industry 
portfolios across both the commercial and defense domains to 
better support current and future of ocean exploration.
    Oceaneering has developed state-of-the-art, world-class ROV 
technologies, and currently is taking those to the next level 
of all electric, resonant, with remote piloting for extended 
missions, and building on those breakthrough technologies with 
our new Freedom vehicle, combining extended electric 
deployment, work, and hovering capability with remote or 
autonomy in extended sub-sea survey inspection and maintenance 
missions.
    As Dr. Bell, I think, mentioned deploying assets, working 
offshore in marine environments is inherently very costly, as 
is developing new and improved technologies for ocean 
exploration. Obviously, no sector working alone can achieve all 
that is needed, and therefore a better collaboration between 
government agencies, academics, non-profits, and industry 
should be a priority. Better collaboration could potentially 
lower the inherent high cost of ocean data acquisition, and 
expand the footprint of coverage. As Dr. Bell touched on, there 
must be better ways to leverage the utilization of existing 
vessels within industry activity, such as transportation, 
offshore energy services, and fishing, and, with that, we might 
be able to improve our collective ability to cost-effectively 
acquire more ocean data.
    Finally, to attract our best and brightest young minds who 
can tackle the technical, cost, data acquisition, and data 
analytics challenges for ocean exploration, we need to make 
sure that industry, academia, and government are providing 
attractive and exciting new opportunities in the areas of ocean 
exploration. Many current and future technical and 
collaborative developments across the spectrum of ocean 
exploration are a key foundation to our collective challenge of 
reaching new depths and discoveries. Having a robust commercial 
sector, partnerships, industry, and participants, such as 
Oceaneering, I believe, can provide a force multiplier that 
complements the tremendous work of Doctors Wiener and Bell, and 
of innovative new players in this area, like David Lang of 
Sofar Ocean Technologies. We all have critical roles to play, 
and, with your Committee's support, we look forward to our 
future in supporting ocean exploration. Chairwoman Fletcher, I 
look forward to engaging in discussion with you and the 
Committee, and answering any questions that you or your 
Committee may have.
    [The prepared statement of Mr. Barrett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Mr. Barrett. Mr. Lang?

                    TESTIMONY OF DAVID LANG,

              CO-FOUNDER, SOFAR OCEAN TECHNOLOGIES

    Mr. Lang. Chairwoman Fletcher, Ranking Member Marshall, and 
Members of the Committee, thank you for this opportunity. I 
need to start with a disclaimer, I am not a formally trained 
scientist or engineer. My path to this hearing is unusual, and 
worth explaining. It begins in an unexpected place, not a 
graduate school lab in Woods Hole or Monterey, not on a 
research vessel exploring the high seas, and not on a Navy 
battleship. It starts in 2011, my friend Eric Stackpole's 
garage in Cupertino, California. We were both in our mid-20s 
and underemployed. We were attempting to build an underwater 
remotely operated vehicle, an ROV, for as cheap as we possible 
could, using only off-the-shelf parts we could buy on the 
Internet. Our goal was to use the robot to explore an 
underwater cave in the Trinity Alps in Northern California, 
supposedly filled with gold from an abandoned heist during the 
gold rush. The story was an excuse for us to tinker with new 
technologies and, honestly, to have a little fun.
    After our unsuccessful, but commendable, expedition to find 
the gold, the project took on a life of its own. The effort was 
reported on by the New York Times, and we were overwhelmed with 
interest by others who wanted a similar, affordable device. We 
launched a project on Kickstarter to sell our design as a DIY, 
build-it-yourself kit, and quickly sold more than we projected. 
Over the years, we grew out of the garage to become one of the 
largest volume ROV manufacturers in the world, pioneering new 
designs, and most recently merging with another company to form 
Sofar Ocean Technologies. Our community, using our tools, have 
made important contributions to the understanding of species 
and ecosystems around the world, and contributed to the 
education and engagement of thousands of students and young 
explorers.
    We only learned later, during a NOAA-organized meeting with 
leading ocean scientists and engineers, just how unique our 
effort had been. The scientists were less impressed with what 
we built, after all, they already had all of these tools, but 
in how we went about it, by openly sharing our designs online, 
crowdfunding our initial startup costs, and, most importantly, 
engaging a global community of citizen scientists. The experts 
were bound by constraints, both economic and institutional, 
that we were not. Our innovation was not a result of genius. It 
was mostly luck, born of necessity and amateur persistence. Our 
inexperience, mixed with a rapidly shifting technological 
landscape, created an opportunity to move the needle on small, 
low-cost ROVs.
    I tell you this long story for context, but also because I 
think we learned really important lessons, which I submit this 
Committee could find useful. The first is to remember that the 
mission of ocean exploration, to illuminate the unknown, 
carries multiple meanings. It's widely reported, as everyone 
here has said, what little percentage of the ocean we've 
explored and characterized. Whether mapping the ocean floor, or 
studying the varying depths of the water column, there are 
still vast areas of Earth left to explore, and we should. But 
there is another responsibility of the ocean exploration 
enterprise that doesn't get as much attention, how we explore. 
Part of the process of discovery is the constant search for a 
better way and a new perspective. This is the technological 
frontier, and it's as dynamic and full of opportunity as the 
unexplored places. The emerging fields of robotics and machine 
learning, the advancements of eDNA and genetic sequencing, and 
the steady march of Moore's law and increasing connectivity 
continue to make this fertile ground for experimentation.
    We're still at the beginning of applying these technologies 
to the mission of understanding and monitoring the ocean. Over 
10 years ago NOAA made a leap by operationalizing Dr. Bob 
Ballard and the Ocean Exploration Trust's vision for 
telepresence, and its potential to scale the effectiveness of a 
single ship at sea, and that telepresence has completely 
changed the way we conduct science, engage the public, and 
inspire the next generation. We need more leaps. Exploration is 
where we go and how we get there.
    The second lesson is that entrepreneurs and startups are an 
increasingly important part of navigating this technological 
frontier. Congress would be wise to look at the evolution of 
NASA (National Aeronautics and Space Administration) over the 
past decade and hope for a similar ocean renaissance. As a 
generation of space entrepreneurs took to the cosmos, NASA was 
able to find commercially competitive contractors to take over 
launch and other duties, which allowed them to focus their 
resources on what they do best, going further. As NOAA faces 
the challenge of managing aging ships and infrastructure, the 
agency would do well to focus enough of their limited resources 
on stimulating a vibrant private sector, rather than trying to 
rebuild everything themselves.
    The last lesson is--we learned is that ocean exploration is 
for everyone. We all have a stake. This is not just a coastal 
issue. We were surprised by all of the enthusiasm we received 
for our project, the citizen scientists who wanted to get 
involved all over the world. I can do no better than John 
Steinbeck's call to the sea, published in 1966 in Popular 
Science, which is still as relevant as ever. There is something 
for everyone in the sea. Incredible beauty for the artist, the 
excitement and danger of exploration for the brave and 
restless, an open door for the ingenuity and inventiveness of 
the clever, a new world for the bored, food for the hungry, and 
incalculable material wealth for the acquisitive, and all of 
these in addition to the pure clean wonder of increasing 
knowledge. Ocean exploration is a cause worth championing, and 
I hope that you do.
    [The prepared statement of Mr. Lang follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Mr. Lang. At this point 
we'll begin our first round of questions, and I'm going to 
recognize myself for 5 minutes.
    I really enjoyed hearing from all of you, and there are 
some themes that emerged that all of you have talked about. 
One, stimulating excitement, and innovation, and interest in 
this exploration, and two, the partnerships, and so I want to 
try to touch on both of those, and I have general questions for 
the panel. As I mentioned in my opening statement, and Dr. 
Wiener referenced, more people have walked on the moon than the 
deepest parts of the ocean, and, of course, being from Houston, 
we are very proud of our history of space exploration and 
putting man on the moon, but certainly there's a lot of work to 
do here.
    So I loved seeing the pictures of the artists that you had, 
Dr. Wiener, and I'm wondering of you all can suggest some 
specific ways that we can excite the public about ocean 
exploration. To your point, Mr. Lang, about invigorating a 
whole new group of folks to get out and engage in this process, 
how can we excite the public about ocean exploration with the 
same vigor that we've seen, for example, in space? And that's 
for anyone on the panel who wants to take it. Want to go first, 
Mr. Lang?
    Mr. Lang. I would, yes. I think--when you think about 
what's happened with space, and why it's received such a 
renewed excitement, the people who are leading at are 
entrepreneurs. It's Elon Musk and Jeff Bezos. Those are the 
first things that come to mind, and I think all of the 
entrepreneurs who are following their lead. And so I think it's 
wise to look at that example, at charismatic entrepreneurs, as 
folks who can help reinvigorate. And I think NASA has done a 
great job of working with that momentum, and helping to support 
it.
    Chairwoman Fletcher. Thank you. Anybody else want to weigh 
in? Dr. Wiener?
    Dr. Wiener. I'd like to weigh in as well, thank you. 
Another point I'd like to make too, in terms of the space/ocean 
comparison, space has done a really good job of branding 
itself, and the oceans have--are getting there, but it's a lot 
more diverse. We've got coral reefs, and shallow waters, and 
deep sea, and many different ecosystems, and making those 
connections, I think, is something that needs to be emphasized 
more, and also reaching those that haven't traditionally been 
involved in the ocean, so reaching some of our underserved or 
underrepresented groups that don't have direct access to the 
ocean, and starting with inspiration at a young age, and 
following through from K to gray, making sure that we are able 
to engage all of our public communities in the ocean.
    Chairwoman Fletcher. Thank you, Dr. Wiener. Dr. Bell?
    Dr. Bell. Yes, I'd like to go in a slightly different 
direction and look at media and entertainment. I have no idea 
what percentage, but I would be willing to bet that a large 
percentage of people who are in the space industry loved 
watching Star Trek and Star Wars, and there are many people, 
Mae Jamison, for example, who cites her experience at NASA 
because of Nichelle Nichols in Star Trek. And I think that it 
would be a huge opportunity loss to not look at media and 
entertainment because of the stories that can be imagined and 
told about--potentially utopian ocean futures, rather than the 
dystopian ones that we see every day in the media, to bring it 
to a much, much larger audience than today we're able to 
through--and we are reaching tens of millions with 
telepresence. We are reaching lots and lots of people through 
citizen science initiatives, but if we actually want to reach 
billions of people, I think we need to do it with different 
types of partnerships than we have before.
    Chairwoman Fletcher. Thank you. Well, that touches on sort 
of the second area that I wanted to go to, and, knowing that I 
have limited time, maybe I can just segue over to talk a little 
bit about the existing partnerships, and how we can strengthen 
the existing partnerships amongst government, academia, 
industry that you all have referenced. How can we strengthen 
those to leverage the available ocean exploration tools? I 
think, Mr. Barrett, you talked a little bit about that, and 
resources in the future, and then how can we kind of broaden 
that to reach your objective, Dr. Bell, of widening interest? 
Maybe, Mr. Barrett, could you talk about that a little bit 
more?
    Mr. Barrett. I think one of the challenges for industry and 
commercial enterprises like oceaneering is investment, and 
investment in new technology comes with inherent risks. And 
often we invest in new technologies because we have a clear 
line of sight to our customer's needs, and how we would 
commercialize toward those needs. I think a better line of 
sight to a broader spectrum of technological needs that apply 
to ocean exploration, in the academic sense, and in the 
scientific sense, and the vision going forward could be very 
useful to commercial enterprise to shape better how they view 
and justify technical investments, technology investments.
    I think the other piece that--it seems to me that the 
collaboration around the vast numbers of oceangoing vessels, 
and how they could be utilized to capture more data on a 
regular basis is something that should be explored more fully. 
It'll take a platform, and forums, and better opportunities to 
engage with those enterprises to do it, but it seems like an 
opportunity to me.
    Chairwoman Fletcher. Thank you, Mr. Barrett, and I see that 
I have gone over my allotted time, so I will now recognize 
Ranking Member Marshall for 5 minutes.
    Mr. Marshall. OK. Thank you, Chairwoman. I want to talk a 
little bit about globally, some of the global challenges that 
we have. In particular, I'm always interested to know if our 
scientists are talking to scientists from other countries, 
specifically China, India, Russia, Japan, Brazil. Is there any 
interaction between what we're doing and some folks from there? 
Have any of the four of you had interaction with scientists 
from other groups working on solving this problem that we have 
together? This is a world challenge, obviously. Dr. Bell does.
    Dr. Bell. Definitely. Yes, working with Nautilus for many 
years, we've worked in--all over the Mediterranean region, and 
so therefore working with scientists from all of those 
countries. And one really exciting opportunity coming up is the 
U.N. Decade of Ocean Science for Sustainable Development, which 
is sort of being--ideas are coming together right now to launch 
for 2021 to 2030, and I think that's a huge opportunity to work 
with like-minded scientists from all over the world.
    Mr. Marshall. Will China and Russia participate in that?
    Dr. Bell. I believe that there were--there were scientists 
from China at the first global planning meeting that was just 
held 2 weeks ago in Denmark. I don't know if Russia was 
represented there. But the--that was just the first planning 
meeting, and regional meetings are being planned for the next 
year or so----
    Mr. Marshall. India, Brazil, would they most likely be 
there?
    Dr. Bell. I would have to check.
    Mr. Marshall. Is there anything that we can do to promote 
those relationships and work on this challenge together?
    Dr. Bell. Absolutely. There are several members of the 
executive planning group for the U.N. Decade that are from the 
U.S., Craig McLean, most notably, who's the acting chief 
scientist of NOAA, so I would definitely talk to him first 
about who from those countries have been represented so far, 
and who might be in the future. There will be several regional 
planning meetings coming up in the next year, and I believe 
that Brazil might be one of the hosts of those. But I'd be 
happy to get back to you.
    Mr. Marshall. Anybody else with interaction with other 
scientists? Mr. Barrett?
    Mr. Barrett. No. Ours really is through--we're a global 
company, but our interaction is always through our customers, 
traditionally, in the global stage.
    Mr. Marshall. OK. All right.
    Dr. Wiener. I just wanted to add to the remarks from Dr. 
Bell that there's also the Seabed 2030 Project, which is an 
initiative from the Nippon Foundation in Japan, and it's a 
global initiative to try and map the entire ocean sea floor by 
2030, and so that's another opportunity to engage and 
collaborate with the nations that you've mentioned. Schmidt 
Ocean Institute also looks to international collaborations, and 
we have hosted many scientists from multiple countries 
collaboratively on our research vessel for different projects, 
including some of the countries that you had mentioned.
    Mr. Marshall. OK. So certainly my learning curve on 
oceanography right now is like this, and I'm back here, so 
forgive me if this is an ignorant question, but as I think 
about the function of the ocean, removing carbon gases, and 
then restoring oxygen from all the plankton that we have around 
the world, is that all done in the top 10 or 20 meters of 
water? Are there plants down lower that are doing that as well, 
in your research?
    Dr. Bell. So the actual photosynthesis that's happening is 
being done in the top layers, where sunlight can penetrate 
through the water, but the ocean circulates, on a global level, 
from sea surface down to deep water, so it's a very 
interconnected system. I am not an expert in that particular 
field, but the carbon dioxide that's being used by plants is 
happening in the top layers.
    Mr. Marshall. So are there any innovation opportunities 
down deeper to help promote that photosynthesis that's going on 
above? And I think you were staring to go in that direction a 
little bit.
    Dr. Bell. Do you want--I have one interesting fact about 
whales, that whale defecation actually is a huge input of 
carbon to those systems to support plankton, which then are the 
basis of, for example, fisheries, and other--it's a very----
    Mr. Marshall. I hope they're not releasing----
    Dr. Bell. It's a killer system.
    Mr. Marshall [continuing]. Any methane gas. OK. Dr. Wiener, 
go ahead.
    Dr. Wiener. I just wanted to add to that, that we still 
don't fully understand those relationships, and that is why 
exploration and research is so important, is to better 
characterize these very specific--not--sorry, to better 
characterize how these interactions take place, and looking at 
these small ecosystem relationships, and how they are 
interconnected.
    Mr. Marshall. OK--anyone else?
    Mr. Lang. I would add its--the perspective of someone who's 
also relatively new to the ocean exploration enterprise, and 
ocean science, and the thing that was most surprising to me 
over the past decade has been realizing just how little we 
know, and how much we're actually at the beginning of starting 
to understand these kind of systems, and how much progress----
    Mr. Marshall. I need to yield back, but I think we keep the 
goal in mind, if our goal is to innovate, as opposed to just 
researching for researching, so I yield back.
    Chairwoman Fletcher. Thank you, Mr. Marshall. And, before 
we move on, I would also like to mention that we received two 
letters of support for this hearing, and ocean exploration, 
from OceanX and Woods Hole Oceanographic Institution that I 
will submit for the record. And, with that, I'd like to 
recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Madam Chair. Mr. Lang, I was very 
interested in what you said about--as NOAA makes decisions 
going forward about the use of its resources, sort of where we 
direct those investments, and how they can take advantage of 
the energy of young entrepreneurs, and folks in the private 
sector, while also kind of doing the core mission that you 
benefit from. Because you highlighted telepresence in your 
testimony, and that was sort of a NOAA-led innovation, as I 
understand it. So could you may just go into a little more 
detail about, in your experience, what you saw as the strengths 
of NOAA, like, the things that only NOAA could've done, and the 
things that you think could be sort of more efficiently built 
upon by people in your situation?
    Mr. Lang. Yes, absolutely. So I think the biggest thing 
that--the biggest opportunity is in terms of autonomy and 
distributed systems. I think the costs of sensors and compute 
is going down, connectivity is continuing to increase. I know 
SpaceX just launched their Starlink system. Connectivity is 
going to change dramatically in the next few years, and the way 
that we do--the way that we actually collect that data could be 
done in a much more distributed manner. And you--there's a 
number of startups working in this area, and it's a really 
tricky interface right now to work with NOAA. It's a--it's--
there's a lot of hurdles, and a lot of--it's unclear what the 
interface actually is, and I think that's the big opportunity, 
is to create----
    Mr. Lamb. Are those technical hurdles, like they don't have 
the systems to make the data interact with each other, or is it 
more regulatory, or cultural, or could----
    Mr. Lang. I would say it's cultural. I think the way that--
how fast a startup moves--you think about the way that we're 
able to raise capital, and the timelines that we're working on, 
in, like, months and years, rather than the way that kind of 
the NOAA grant process works, is more on an academic schedule, 
which is actually really a tough way to work for smaller 
companies like ours. It's easier for bigger companies, who have 
those kinds of cycles, but it's trickier for a group like ours. 
I think the, you know, the Department of Defense, with their 
DIU (Defense Innovation Unit), has kind of--has started to make 
headway into trying to figure out a way to interface with these 
companies, but it's still a problem worth solving.
    Mr. Lamb. OK. And the advancements in your space, can you 
just kind of describe what you expect to see in the next few 
years, as far as these, you know, just these underwater drones, 
for lack of a better term? I mean, are we talking sort of pure 
data gathering, are we talking, like, actual expiration of, you 
know, species, and testing to determine if we could get, you 
know, anti-inflammatory drugs or anything out of them? Tell me 
just kind of where we are.
    Mr. Lang. Yes. So these are our ROVs right here. I mean, 
this is orders of magnitude smaller and cheaper than what's 
existed before. I think we're going to continue to see the 
miniaturization and the autonomous potential. I think there's a 
ton happening with positioning sensors that's going to open up 
a lot. The way that eDNA is--become a way to actually sense 
what's in the environment. I think you look at how cheap 
genetic sequencing is getting, that we're going to have an 
opportunity characterize these environments in a completely 
revolutionary way.
    Mr. Lamb. So you think we're not that far away from the 
ability, for example, for one of your sensors to actually 
sequence a genome underwater, and send that data back to the 
surface?
    Mr. Lang. I don't know if one of--the in situ genetic 
sequencing is not something--I don't know how close we are to 
that exactly, because you've got to understand, everything--as 
fast as that's moving on land, doing that in situ underwater is 
really hard.
    Mr. Lamb. Right.
    Mr. Lang. But I would say, when you look at, like, from a 
systems perspective, and the way that we've been able to engage 
this global community of citizen scientists, there's a huge 
opportunity to engage people in a different way. And there was 
just--the--in 2016 the Citizen Science Act, I forget the 
precise name of it, but--allowed that data to be used for 
scientific research purposes, and for government research 
purposes. So there is kind of some precedent to start thinking 
about these systems in new ways, these data collection systems.
    Mr. Lamb. Thank you. I yield back.
    Chairwoman Fletcher. Thank you very much, Mr. Lamb. I will 
now recognize Mr. Babin for 5 minutes.
    Mr. Babin. Thank you very much, Madam Chair, appreciate it. 
And thank you, witnesses, for being here. We really appreciate 
your testimony. In addition to serving on this Subcommittee, I 
also serve as the Ranking Member on the Space and Aeronautics 
Subcommittee, and I have the privilege of representing Johnson 
Space Center back home in Houston. And, with that in mind, I'd 
like to ask a couple of questions about ocean exploration, and 
how this field is often closely tied with technologies that are 
used in space exploration as well. And so, Mr. Barrett, I'll 
start with you.
    Oceaneering has engaged in extensive research and 
development as part of its core business of energy exploration. 
And, for many years, Oceaneering has been involved in the space 
industry, and is currently working with NASA on the next 
generation spacesuit. How did your work in ocean exploration 
contribute to the spacesuit development, and what lessons 
learned from ocean exploration have helped you in spacesuit 
development as well?
    Mr. Barrett. Congressman Babin, that's a great question. 
It's a--such a natural adjacency to take technology and methods 
that were developed in a harsh environment underwater, and then 
use those in a harsh environment that includes the vacuum of 
space. And so the way that man interacts with that environment, 
though--whether it's a spacesuit, or through a diving suit, 
there are tremendous learnings and applications that were 
deployed.
    We mostly do work underwater in our diving and in our ROV 
business, and the way you do work through automation, through 
tool position, through the use and design of the tools, as well 
as the visibility and the inherent challenges of mobility and 
dexterity, it's a natural adjacency for us. And it even carries 
into the Neutral Buoyancy Lab, which we operate the divers for 
the Neutral Buoyancy Lab, so--to simulate working in space, 
it's a natural to do that underwater, and make the astronaut 
neutrally buoyant so he can practice his--I think they call it 
EVAs, his extra vehicle activity, over and over until it's very 
routine and very precise, so----
    Mr. Babin. Which is more hostile, underwater or space?
    Mr. Barrett. Well, in some ways underwater. When I first--
--
    Mr. Babin [continuing]. I thought.
    Mr. Barrett [continuing]. Joined the sub-sea business, and 
we were completing--helping our customers complete wells in 
10,000 feet of water, the difference is, you know, a vacuum has 
a pressure differential of one atmosphere. In 10,000 feet of 
water, you've got pressures of 5,000 psi, so in some ways the 
ocean depths can be--I will say as hostile, or more hostile.
    Mr. Babin. Right. That does not surprise me. Thank you very 
much. And, Dr. Wiener, I wanted to ask you, I serve as the 
Ranking Member of Space and Aeronautics. As I see it, I was 
fascinated to read how the Schmidt Institute had worked with 
NASA on the development and testing of hardware in preparation 
of future deep space missions by utilizing the depths of the 
ocean, that's similar to the Neutral Buoyancy Lab. How is this 
partnership between NASA and the institution initiated? And, 
following up on that, what have been the benefits for each side 
in this partnership?
    Dr. Wiener. Thank you for your question. We've been working 
with scientists in the research community who work with NASA on 
development of technologies. There are similar goals there 
between ocean exploration and space exploration. An example is 
the Abyss Lander. This was recently used on research vessel 
Falkor in 2018, with Dr. Peter Girguis from Harvard, and some 
of the technologies that they were using on this lander are to 
test and see how things work on this lander that could also be 
used in space.
    Additionally, other technologies have been looked at with 
other scientists on Falkor, in terms of remote capabilities, 
and being able to talk to the technologies, or the robotics, 
that you're using, and using AI to make decisions when they're 
away from--let's say the mothership, whether that's a vessel or 
a spaceship. Thank you.
    Mr. Babin. Fascinating. Thank you very much, and I yield 
back, Madam Chair.
    Chairwoman Fletcher. Thank you, Mr. Babin. And, as you all 
can hear from the bells, votes have just been called, as I 
mentioned at the beginning of our hearing, so we're going to 
stand in recess for probably about 15 minutes. I believe we 
just have one vote on the floor. But we're going to recess, and 
then we'll come back. Thank you.
    [Whereupon, at 10:04 a.m., the Subcommittee recessed, to 
reconvene at 10:39 a.m. the same day.]
    Chairwoman Fletcher. The hearing will come to order. We are 
now reconvening our hearing. Thank you to the witnesses for 
your patience, and we were in the process of taking questions 
from Committee Members, so I believe at this time I will now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Madam Chairwoman, and thank you for 
holding this hearing in honor of World Oceans Week. Our oceans 
hold so much promise, from understanding the origins of life, 
to offering new medicines, to the enhancing of opportunities to 
learn and excite new students, and, of course, providing for 
the thrill of exploration and innovation. The evidence 
undeniably shows that climate change is hurting our oceans, and 
the trend will only get worse with inaction. As a Committee, 
the promise of our oceans should motivate us to push forward in 
addressing the challenges of climate change.
    In 1962, President Kennedy gave his famous moon shot speech 
in support of the Apollo program. In less than 10 years NASA 
landed a person on the moon, proving that incredible 
achievements in science and technology can come about in a 
relatively short amount of time. So for each and every one of 
our witnesses, is there a need for an ocean exploration moon 
shot, and if so, what should it aim to achieve? Maybe we'll 
start with you, Dr. Bell?
    Dr. Bell. That's an excellent question. I think that 
absolutely yes there should be an ocean moon shot. What exactly 
it should be I think should be a broader discussion. But 
looking at exploring some percentage of the ocean by 2030, 
2040, would be ambitious, but yet feasible. What that 
percentage is, maybe 30 percent, I don't know, but I think that 
it's definitely something that would galvanize the United 
States behind a common goal, the scientific community, the 
private community, Federal philanthropic, and would provide 
some sort of end goal that we can accomplish together.
    Mr. Tonko. Thank you. Dr. Wiener?
    Dr. Wiener. Yes. I echo Katy's comment that I do think an 
ocean shot or moon shot would be a very helpful and important 
initiative. Having a common goal, whether it's mapping the sea 
floor, or working together to really focus in efforts on 
working on technology advancement to be able to characterize 
the ocean in a more persistent and low cost way I think would 
be another way that we could really help make dramatic 
improvements.
    Mr. Tonko. Thank you. Mr. Barrett?
    Mr. Barrett. Yes. Just building a little bit--we talked a 
little earlier about inspiring the best, brightest minds, the 
entrepreneurs, the students, to enter the field, and I think a 
moon shot, quote/unquote, a very tangible, exciting goal that 
could spur more collaboration, get people really excited. I do 
believe that it's no one sector of government alone, or 
industry, or--I think it has to be the kind of goal that people 
could really wrap around across all the sectors. I think it'd 
be fantastic.
    Mr. Tonko. Thank you. And Mr. Lang?
    Mr. Lang. I think the moon shot works really well in space, 
and I think--I like Elon's goal of going to Mars as being an 
invigorating motivator for space. When I think about oceans, I 
think of Jacques Cousteau, and the example that he set. And, to 
me, the biggest challenge facing our oceans is not plastic 
pollution or ocean acidification, it's getting more people to 
care. And I think the biggest challenge is that, and, in order 
to do that, I look to Cousteau, really, as the model we should 
try and emulate.
    And he's known for, obviously, his media, as Katy said, as 
an important part of this, but he also co-invented the 
aqualung. He invented SCUBA diving. And I think we need to 
think about these kind of new technologies that give everyone 
that ability to actually participate in this whole process. And 
I think NOAA in particular has an incredible opportunity to 
lead that engagement process.
    Mr. Tonko. Quite a point. And with that field of ocean 
exploration, how is it evolving with the development of new 
technologies? Anyone?
    Mr. Barrett. I highlighted a few, but I think with the work 
that Mr. Lang is doing, I think it's going to evolve around how 
do we get more, you know, more devices collecting data, 
mapping. It's going to be about power management. There's going 
to be new technologies needed for communications and autonomy. 
To deploy these assets, sensors, sub-sea for an extended period 
of time, it's going to take some new technology to be able to 
deliver the power, probably from the surface, or recharging 
these types of things. And I think there's a lot of 
opportunity--and I think the connectivity is a big enabler for 
everybody as we get more communication power distributed across 
the oceans.
    Mr. Tonko. And Dr. Bell?
    Dr. Bell. Yes, and another thing that we need to consider 
is also the scale on which we do it. So this--everybody has a 
supercomputer in their pocket now because millions of these 
devices are made. There's more computing power in this than all 
the computers combined that put men on the moon. So if we 
actually want to explore the entire ocean, or some significant 
part of it, we need to dramatically bring down the costs of 
systems, sensors, and the data analysis. People can't sit there 
after an expedition and review every second of every bit of 
video that has been collected. We need to be using advanced 
algorithms, machine learning, computer vision, to be able to 
deal with the amount of information that will be coming in.
    Mr. Tonko. Thank you. My time has expired, but I just want 
to share with Mr. Lang that--earlier you mentioned the Citizen 
Scientist Act. I'm very proud to have sponsored that 
legislation, and even more proud that it's been recently signed 
into law, so thank you, and let's go forward with science. 
Thank you. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Tonko. I'll now 
recognize Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair, and thank you to the 
witnesses for your patience and attention today. Turning first 
to Dr. Bell, in your written testimony you mentioned ocean 
science compared to other fields of science, has been largely 
left behind by the digital era. Help me understand that a 
little bit. How much of that is sort of the scope of the 
problem, or the scope of the research that we're trying to do 
itself, versus workforce, versus just general interest? Kind of 
just flesh that out for me a little bit.
    Dr. Bell. So one of the challenges, again, is just the fact 
that the tools that we're using today are so large and custom-
built. Everybody redesigns a pressure housing for every 
different vehicle that is being created. And so if we're able 
to take advantage of, for example, you know, cellphone 
revolution, the fact that everybody has a computer, bringing 
down the costs of chips, and all of the over devices that are 
required to do that, then we can bring down the costs, and 
significantly increase the amount of area, or volume, that we 
can explore for the same amount of money eventually.
    Mr. Gonzalez. So why are they custom-built? Because, I 
mean, that's the, like--right, the custom-built, on premise 
software versus cloud-based solution question applied to this 
problem----
    Dr. Bell. Sure. I might defer to Mr. Barrett on that one, 
for Oceaneering.
    Mr. Barrett. The, you know, the marine environment is an 
extra harsh environment. Things that come in and out of the 
water are subjected to every aspect of corrosion, and--so you 
end up with inherent costs associated with equipment, and 
deployment of that equipment in the offshore environment. And 
truly the scale--back to the scale, you know, problem, or 
opportunity, depending on how we do it--the only way to get the 
cost down is really through scale, through having a volume of 
equipment, or sensors, or even a volume of--ability to deploy 
them is going to be the only way, I think, to get the costs 
down associated with massive ocean exploration.
    Mr. Gonzalez. OK. And then, turning a little bit to 
workforce, so, Mr. Barrett, you represent a company who has 
benefited from ocean exploration and research. What can this 
Committee do to help you continue technology development 
efforts, and how challenging is it to find a well trained 
workforce in this field?
    Mr. Barrett. I think our company is pretty well positioned 
to find the workforce, but I do believe that this Committee 
could, you know, further support STEM (science, technology, 
engineering, and mathematics) education, particularly as it 
relates to ocean and ocean sciences. We, I think, previously 
highlighted the need to get more people engaged, more 
entrepreneurs engaged, more public awareness so that it is an 
exciting field to go into.
    I think we have to create an infrastructure that provides 
opportunities, more opportunities, and that comes through 
companies like ours, that provides opportunities because we're 
commercially successful. It comes from academia. It comes from 
non-profits having the funding to be able to provide exciting 
opportunities, and it comes from the success of entrepreneurs, 
so I think anything you can do to support those endeavors. And, 
finally, I would say the collaboration piece again. A 
platform's more, you know, an easier path to collaborate is 
another area that I think could help us as a company see the 
vision and future better so that de-risks our technological 
investments a little bit.
    Mr. Gonzalez. Great. And then, Dr. Bell, you cite research 
that suggests the number of students pursuing Ph.D.'s in ocean 
engineering have remained steady, while other fields, such as 
aerospace engineering, have increased. To what do you attribute 
that trend, and what are you doing to address this challenge?
    Dr. Bell. That's an excellent question. I don't know why 
that's happening. What am I doing to address it? Well, being 
involved in STEM education, and sort of broad public engagement 
in general is definitely one thing I'm doing. Last year, about 
6 months ago, I chaired the 2018 Ocean Exploration--National 
Ocean Exploration Forum at MIT, which was on broadening 
engagement and participation.
    Mr. Gonzalez. Great. And I didn't mean it to be a personal 
question, sorry.
    Dr. Bell. No.
    Mr. Gonzalez. Maybe let me ask it differently. What, in 
addition, should we be doing? What should--societal, maybe take 
that lens on it.
    Dr. Bell. Sure. Well, I think that----
    Mr. Gonzalez. Didn't mean to call you out there.
    Dr. Bell [continuing]. Looking at different partners in 
different industries in a different and creative way than we've 
done it in the past, rolling out yet another ocean curriculum 
for middle school is not nearly as exciting and engaging as 
maybe a television show, or a movie, that highlights factual 
things, but also may have, you know, exciting storytelling 
behind it. Aquaman, for example, was the highest-grossing DC 
Comics movie of all time, over a billion dollars brought in at 
the box office. So, like, there's an appetite for ocean themes, 
I think.
    Mr. Gonzalez. Great. Well, with the Aquaman reference, I 
yield back. Thank you.
    Chairwoman Fletcher. Thank you. I will now recognize Mr. 
Casten for 5 minutes.
    Mr. Casten. Thank you, Chairwoman Fletcher. Thank you to 
the panel. I must apologize, I have not seen Aquaman yet. I was 
really hoping it was a nice pivot there. I want to talk a 
little bit about climate change. We had a--at our full 
Committee hearing yesterday, one of the witnesses described how 
90 percent of all of the heat that we have generated because of 
man-made CO<INF>2</INF> emissions has been absorbed by the 
oceans. Good news it's a lot cooler up here on the land than it 
would otherwise be. The bad news is that we have that heat 
absorbed in the part of the Earth that we seem to least 
understand.
    And I want to start with Dr. Bell. How much do we 
understand about how that heat stratifies at deeper depths, and 
where are there gaps in our knowledge that you think we should 
focus on really pushing to understand that stratification of 
temperature in the ocean?
    Dr. Bell. So I'm not an expert, admittedly, in climate 
change and heat distribution, but my understanding, and I'd 
like to echo Dr. Wiener's comments earlier, is that we really, 
truly, don't have a good understanding of ocean systems. We 
have a pretty high-level understanding, but looking at specific 
locations--for example, during the break I was speaking with 
Mr. Barrett about oxygen concentrations, and how they affect 
their sub-sea equipment, but they didn't know that, while 
deploying different types of equipment. So we have good--
generally good global models, but verifying them with in situ 
measurements all over the world is something that we really 
don't have, and don't have a really fine-grained understanding 
of how that works yet.
    Mr. Casten. Would any of you care to comment on where the 
gaps in our knowledge, and where we should be thinking about, 
from a Science Committee, to fill in those gaps right now?
    Dr. Wiener. I also am not an expert on the subject, but, 
just from working with many of scientists who have come on 
Falkor to look at this very question, I would say it's not just 
a matter of looking at heat distribution, but also pH, and 
oxygen levels, and how those are impacted by temperature 
changes. The other piece of it that has captured a lot of 
interest from scientists coming onto Falkor is other gases, 
like methane, that is stored in the sea floor, and how that 
methane is transformed in the water, and eventually makes its 
way to the atmosphere. And that's something else that's been 
looked at, and would have an impact on climate change.
    Mr. Casten. So you read my mind on my next question. Mr. 
Barrett, I think you talked about doing some work with some of 
your clients on offshore gas development. I'm assuming that was 
methane hydrates you were referring to?
    Mr. Barrett. Well, no, we haven't been directly involved in 
mining methane hydrates. I was talking about the more 
traditional aspects of oil and gas production.
    Mr. Casten. OK.
    Mr. Barrett. We have--I think we've done some survey work 
around methane hydrates, but that's not part of our direct 
business.
    Mr. Casten. OK. Well, I guess I'd follow up with Dr. 
Wiener. As we raise these temperatures, there's a ton of these 
clathrates that are down at depth that we are, I think, all 
crossing our fingers that are going to stay at depth, given the 
impact on climate. And it comes back to my question, as we warm 
up at these deeper levels--and I should understand the 
thermodynamics better. Is it pressure that keeps them down 
there, is it temperature that keeps them down there, or is it 
both? Because the pressure will presumably stay, but, as the 
temperature goes up, how concerned should we be?
    Dr. Wiener. You know, I don't feel like I have the 
expertise to really answer the depth of concern that we should 
have. I certainly do think, though, that making sure we have a 
fundamental understanding of that through baseline studies is 
critical to--before we progress with anything further.
    Mr. Casten. OK.
    Mr. Barrett. I can comment a little bit on it. There's a, 
you know, methane hydrate formation curve that has to do with 
both temperature and pressure, so at points on that pressure/
temperature combination is where hydrates form, so it's a 
combination of the two. Our company's involved in hydrates that 
actually form in pipelines sub-sea, and the remediation of 
those, but not--again, not with those naturally occurring 
hydrates that are, you know, found on the ocean bottom.
    Mr. Casten. So with your familiarity on that pressure 
temperature curve, as I said, the, you know, the pressure at 
10, 12 atmospheres is going to stay 10, 12 atmospheres of 
pressure, but the temperature's going to change. Are there 
ranges of possible warming that get up to a concerning point 
where it's just into the gas phase?
    Mr. Barrett. Yes. I mean, there are two ways to bust a 
hydrate. There's one to increase the temperature, or to reduce 
the pressure. That's the extent of my knowledge.
    Mr. Casten. OK. Well, thank you all for letting me geek out 
for a second, and I yield back the balance of my time.
    Chairwoman Fletcher. Thank you, Mr. Casten. I'll now 
recognize Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you, Madam Chair, and thank you all very 
much for being here. The ocean-space dichotomy is fascinating, 
because this is a panel that loves space, so we thank you for 
giving us a chance to learn so much more about the deep ocean. 
Mr. Lang, in some of the printed testimony we had--it'll take 
10,000 ship years to completely view the sea floor. And even if 
we have a full-time exploration of 10 ships, it'll take 1,000 
years. That's longer than we probably want it to take. You 
suggested that maybe NOAA should scale back on its direct 
investment in ships and infrastructure, and let the private 
sector take up the slack, and we've certainly watched for years 
as NOAA has been pushing for ever more congressional investment 
in its fleet. Can you comment on how likely it is that the 
private sector will pick up what is now a 10,000-year project?
    Mr. Lang. Yes, absolutely. And I, you know, in my 
involvement on the NOAA Ocean Exploration Advisory Board, I've 
been involved in some of those conversations, and heard, you 
know, everyone's aware of the challenge. I think the reality is 
that if we want to map the ocean floor to the extent we want 
to, it's going to take distributed autonomous systems. And the 
good news is these things are getting cheaper, and they're 
getting smaller, and they're getting more affordable. I think 
the question is, can we get enough brainpower, and enough 
people working on innovating in this field, and in that space? 
And I think the--there has to be more of an economic incentive, 
a clear economic incentive, to drive the investment, to drive 
the enthusiasm, of entrepreneurs and technologists.
    Mr. Beyer. Which means to say, if you map it all, what 
economic value is it to entrepreneurs? Or the public?
    Mr. Lang. Yes, both, right? There has to be kind of 
economic mechanisms to underwrite that development, whether 
that's mapping--but also there does have to be a driver that 
spurs it. And I, you know, whether that's deep-sea mining, I'm 
not sure.
    Mr. Beyer. OK, great. Thank you. Dr. Bell, you talked about 
how the six leading autonomous underwater vehicle companies, 
only half are the U.S. But obviously the U.S. has been the 
leader in all this ocean research. Where's China? Which also 
comes up in this Committee a lot.
    Dr. Bell. Yes, as this morning. That I don't know. Most of 
the autonomous vehicle companies that I know of are more in 
western countries than in China. I do know that there has been 
a sudden explosion of small ROVs by Chinese companies just, 
like, in the last 6 months to a year. They----
    Mr. Beyer. Is there any reason we need to be threatened by 
Chinese research, as we are, for example, with Chinese research 
in AI?
    Dr. Bell. I don't know enough to answer that question.
    Mr. Beyer.OK. Cool. Well--yes, Mr. Lang?
    Mr. Lang. I think what--we can look at what happened with 
aerial drones. These got smaller, and cheaper. And what we keep 
talking about are making--getting to economies of scale, and 
making sure the sensors, and the production, can build these at 
the scales that we need. And that's something they're very good 
at, and something that we're not as good at. And it's--we are 
the--on the front lines of that competition, and I think if you 
look at aerial drones, you can see how we kind of lost out on 
that industry because of our inability to engage with smaller 
entrepreneurs who were just getting going at the same time.
    Mr. Beyer. Great. Thank you. I don't know who to address 
this question to, but the whole discovery of the chemosynthetic 
bacteria in the deep vents, I guess something that clearly 
didn't need light to have life, and I don't know how much 
oxygen is involved in it. What will this help us to understand, 
in terms of the origins of life? There's a recent book that I 
just read a review of this morning that talked about how we 
probably are the only intelligent life in the universe because 
it's so difficult for life to evolve, and yet here we've had 
life evolve twice, once in the photosynthetic way and once in 
the chemosynthetic way. No molecular biologists or geneticists 
on our panel, are there? All right, let me----
    Dr. Bell. Well, I don't know if they evolved separately or 
not, but there are many ocean scientists who are interested in 
the origins of life, and are also looking to other ocean 
worlds. So they're studying the microbiome here on Earth so 
that they can start to identify what types of things we might 
find, for example, on Europa, once we're able to drill through 
the ice and get down through the water. So using the 
information that we're able to study and understand here on 
Earth is definitely being used for understanding the sort of 
broader question of life in the universe.
    Mr. Beyer. OK, great. Thank you. And then, an easy 
question, the Ocean Exploration Act of 2009 required NOAA to 
establish a national strategy and program for ocean 
exploration. Is there such an actual national strategy now 
that's formalized, that's one paragraph, one sentence, one 
book? Well, I was looking for it all through the testimony, and 
I saw a lot of amazing ideas, but no national strategy, per the 
Act. OK.
    Dr. Bell. I don't know if there is one. There was a 
review--a 10-year review of the office, and a report as a 
result of that. Has the OAEB (Ocean Exploration Advisory Board) 
been a part of a national strategy?
    Mr. Lang. That's absolutely a discussion that happens at 
the OEAB level, is trying to set that priority. And there's an 
annual or semi-annual conference that happens where they bring 
people from all sorts of sectors, that we do discuss that. The 
question that you asked is a good one, is there a paragraph 
that describes it? And I think that's something that, because 
none of us can recall it, is--if it exists, it's not well known 
enough.
    Mr. Beyer. Well, I know the Chair of the Subcommittee, so 
I'm going to talk to her about it, so we'll see. Thank you, 
Madam Chair. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Beyer. I'd now like to 
recognize Ms. Bonamici for 5 minutes.
    Ms. Bonamici. Thank you, Chair Fletcher. Thank you all for 
being here. I just want to start with a follow up to 
Representative Gonzalez's question about workforce, especially 
because, Dr. Bell, I saw that you do work at the MIT Media Lab, 
and more than 5 years ago, John Maeda, who spent 12 years at 
the MIT Media Lab, who was at the time the president of the 
Rhode Island School of Design, came here to Capitol Hill to 
help me launch the bipartisan STEAM Caucus, which integrates 
arts and design into traditional STEM learning to help, number 
one, engage more people, especially diversify the workforce at 
the K-12 level and college level, but also to make sure that 
people who are entering the STEM fields are getting both halves 
of their brain educated so we have creativity and innovation in 
the STEM workforce. So I just wanted to mention that there is a 
bipartisan congressional STEAM Caucus. I also serve on the 
Education Committee, and it comes up as well, when we're 
looking at expanding that workforce, the schools that have 
taken the STEAM approach are seeing more engagement, and more 
creativity, and innovation.
    So, now starting with, you know, looking at our planet, and 
Representative Beyer mentioned, you know, the focus on space in 
this Committee. If you look down from space at the planet, you 
see blue, fundamentally blue, because the oceans cover more 
than 70 percent of our planet's surface. And you look at--I 
mean, this is Oceans Month, and Oceans Week here on Capitol 
Hill. When you look at the blue economy, and the importance of 
the oceans for feeding people, and the power of the ocean 
waves, and the potential for generating clean energy, and so 
much is dependent on ocean--Representative Casten mentioned 
the--absorbing the anthropogenic greenhouse gas emissions. 
There's so much happening. It's fascinating that we still know 
very little about what's deep in the ocean, compared with what 
we know about the surface.
    So, as we're preparing for the United Nations Decade of 
Ocean Science for Sustainable Development, and the top priority 
to map the ocean floor, I'm working with my fellow co-chair of 
the House Oceans Caucus, Representative Don Young from Alaska, 
to highlight the importance of improving our ocean data and 
monitoring efforts. So later this month I'm going to be 
introducing the House companion to Senator Whitehouse's 
Bolstering Long Term Understanding and Exploration of the Great 
Lakes, Oceans, Bays, and Estuaries, it's easier to remember 
BLUE GLOBE Act, and that would rapidly accelerate the 
collection, management, and dissemination of data on the Great 
Lakes, oceans, bays, estuaries, and coasts. It also tasks the 
National Academy of Sciences with assessing the potential for 
an Advanced Research Projects Agency on oceans, or basically an 
ARPA-O, because we need to overcome the long-term and high-risk 
barriers in the development of ocean technology.
    So, Dr. Bell, in your testimony, you talk about a data 
analysis bottleneck. So what are the greatest challenges today 
in the collection, management, and dissemination of ocean data?
    Dr. Bell. Sure. Well, one of the biggest challenges is just 
the fact that it's so distributed. Everybody has--NOAA has its 
data, Schmidt has its data, the Ocean Exploration Trust has its 
data. Everybody has it in distributed ways. And even if they 
say it's publicly accessible and available, in some cases it 
can be extremely difficult to get, so just even finding--and 
that's for somebody who knows where to look, and knows people 
in those organizations, right? So if anybody doesn't know that, 
or would just be curious, probably couldn't get the data.
    Another one is that we're sort of on the verge right now of 
truly big ocean data, in comparison to organizations like 
Google, or other tech companies, which are dealing with very, 
very large amounts of data. Ocean data really isn't quite big 
yet, but if we're talking about deploying thousands or millions 
of different types of sensors all over the world, we're really 
going to have to figure out how do we actually deal with that 
data. We're not going to be able to have somebody physically 
sitting there looking at every second of video, right? So we 
need to----
    Ms. Bonamici. Right.
    Dr. Bell [continuing]. Develop the kinds of algorithms to 
create automated analysis so that we can pull out that 
information and understanding so that we can really understand 
what we're collecting. Because if we start collecting 
terabytes, petabytes, whatever the correct prefix is----
    Ms. Bonamici. Right.
    Dr. Bell [continuing]. We're not going to be able to do it.
    Ms. Bonamici. Want it to be useful.
    Dr. Bell. Um-hum.
    Ms. Bonamici. And I want to move on--last Congress, I 
helped secure funding for the construction of a National 
Science Foundation regional class vessel. It's going to be 
operated by Oregon State University. It's called the Taani. It 
comes from the Siletz term meaning offshore, scheduled for 
delivery in 2021, and it's going to be equipped to conduct some 
detailed sea floor mapping. The Taani is going to help identify 
geologic structures important in the Cascadia subduction zone 
earthquakes that could likely trigger a significant tsunami on 
the Pacific coast.
    So, Dr. Wiener, what and why are the scientific benefits of 
mapping the ocean floor important, and what breakthroughs do 
you believe will emerge as we expand to sea floor mapping?
    Dr. Wiener. Well, it is critically important that we are 
able to map our sea floor, not only to just understand what's 
down there, but to better characterize the different 
environments, and how they connect to each other. There are 
many--multiple initiatives, as we mentioned earlier today, that 
are looking to collaborate and bring together all of this 
mapping data.
    There are different scales of mapping data. Whether it's 
centimeter, sub-resolution scale, which you get from a robotic 
vehicle, versus multiview mapping, which is a larger--still 
high resolution, but not in the same focus, and I think both 
are important to have for our ecosystems. I'd also like to 
mention that it's wonderful to hear about the STEAM initiative 
that you're doing, and our Artists at Sea program works with 
some of the data that's collected to transform it in an 
artistic way for the public. We actually have an exhibit 
opening this weekend in Detroit.
    Ms. Bonamici. Terrific. Well, thank you so much. I see my 
time--Dr. Bell? Could we let Dr. Bell respond?
    Chairwoman Fletcher. Yes.
    Ms. Bonamici. Thank you, Madam Chair.
    Dr. Bell. Just a specific example for importance of sea 
floor mapping, especially for tsunamis, is that you need to 
know the shape of the sea floor for tsunami models to be 
accurate, to know how much and--of--the sort of magnitude of 
run-up will be on coasts, so that is particularly important for 
tsunami modeling and warning.
    Ms. Bonamici. Right. Which is critical, because we're----
    Dr. Bell. Um-hum.
    Ms. Bonamici [continuing]. Overdue for a massive 
earthquake--thank you. I yield back.
    Chairwoman Fletcher. Thank you, Ms. Bonamici. And, before 
we bring the hearing to a close, I thought I would just see if 
I could give each witness about 30 seconds to share with us, if 
you would like to, what you think Congress could do to support 
ocean exploration. And maybe we'll start with Dr. Bell, and 
just run down the line.
    Dr. Bell. Sure. I have three things that Congress could do 
to support ocean exploration. The first is to re-authorize the 
NOAA Office of Exploration Research, because the Public Law 
111-11 expired in 2015. The second would be to create a 
national or international program to include private, public, 
academic, and philanthropic partnerships, and not it being 
solely a Federal agency, but rather a more inclusive one. And 
also to support sufficient funding for said programs, because, 
in the last 20 years, it's been pretty unstable, and 
insufficient to really make true headway on accelerating and 
transforming the future of exploration.
    Chairwoman Fletcher. Thank you, Dr. Bell. Dr. Wiener, do 
you have anything to add?
    Dr. Wiener. I also have three recommendations that somewhat 
echo Katy's response, but leveraging economies of scale to 
decrease the cost of sensors and systems to make them available 
to more people, to cover more ocean, and to build capacity in 
technology poor regions, protecting sea resources where they 
are vulnerable. We should also look to the advances of other 
industries making exciting innovations across technology 
sectors, such as the medical, oil and gas, defense, et cetera, 
industries that could be applied to ocean research. And to 
position ocean exploration for high-risk, high-reward 
conservation-minded ocean science.
    Chairwoman Fletcher. Thank you, Dr. Wiener. Mr. Barrett?
    Mr. Barrett. I think they covered it really well. I do 
believe cost is going to be the area that we really need to 
focus on, and figuring out ways to leverage what either already 
exists, or how we build scale into the whole effort, because 
individual missions are just extremely costly, and, you know, 
you can't cover 70 percent of the Earth very well that way.
    I think I already highlighted the other two, which is 
certainly the educational aspect. Getting the best and 
brightest engaged and excited about this field I think is 
critical. And, finally, I think the way we could collaborate 
better, and I think a good place for Congress would be to 
create a vision, and to create some goals, and to create some 
consensus around where we want to be as a country, and for the 
world, in terms of understanding the ocean better. I think 
those types of visionary, you know, from the top, those 
visionary statements and leadership is really what it takes to, 
I think, muster the whole effort.
    Chairwoman Fletcher. Thank you, Mr. Barrett. And Mr. Lang?
    Mr. Lang. Yes, I agree with all the recommendations listed, 
including the reauthorization. I--the only thing I would add is 
that--to remember that ocean exploration is not just where we 
go, but how we get there, and this endeavor, this national 
ocean exploration initiative has a real opportunity to pioneer 
some new strategies in how we go about getting there. And I 
think, you know, given what space has done, it seems to me that 
engaging with private companies, and with entrepreneurs, and 
supporting those visions, is a really good way to do it. So, 
thank you.
    Chairwoman Fletcher. Thank you very much.
    Mr. Beyer. Madam Chair?
    Chairwoman Fletcher. Yes?
    Mr. Beyer. May I throw out a 15-second challenge----
    Chairwoman Fletcher. You sure----
    Mr. Beyer [continuing]. Please?
    Chairwoman Fletcher [continuing]. Can.
    Mr. Beyer. I would like--thinking about our space parallel 
here, we're getting ready to go to the moon by 2024 and Mars by 
2033, I have the bumper sticker on my car. If you can think of 
the parallel in the deep ocean to going to the moon by 2024 and 
Mars by 2033, it would help us.
    Chairwoman Fletcher. Yes. That'd be great. Well, I want 
to----
    Dr. Bell [continuing]. Make you a bumper sticker.
    Chairwoman Fletcher. I do want to thank you all for coming 
this morning, for your testimony, and for your patience while 
we took a break to vote. I would also like to recognize Ms. 
Bonamici because, of course, we left our hearing to vote on, 
and Congress has now passed, in the House, H.R. 1921, the Ocean 
Acidification Innovation Act of 2019, and that was largely due 
to her great work, and it is the first bill coming out of our 
Subcommittee through the Science Committee. So I'm very 
pleased, and we passed several others this morning as well on 
the floor. So thank you very much for being here with us.
    The record from this hearing will remain open for 2 weeks 
for additional statements from Members, and for any additional 
questions for the witnesses, but you all are now excused, and 
the hearing is adjourned. Thank you.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
